<html>
<title> - H.R. 2556, SCHOOL CHOICE IN THE DISTRICT OF COLUMBIA: OPENING DOORS FOR PARENTS AND STUDENTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 2556, SCHOOL CHOICE IN THE DISTRICT OF COLUMBIA: OPENING DOORS FOR 
                          PARENTS AND STUDENTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2556

  TO PROVIDE LOW-INCOME PARENTS RESIDING IN THE DISTRICT OF COLUMBIA, 
  PARTICULARLY PARENTS OF STUDENTS WHO ATTEND ELEMENTARY OR SECONDARY 
SCHOOLS IDENTIFIED FOR IMPROVEMENT, CORRECTIVE ACTION, OR RESTRUCTURING 
 UNDER TITLED I OF THE ELEMENTARY AND SECONDARY EDUCATION ACT OF 1965, 
  WITH EXPANDED OPPORTUNITIES FOR ENROLLING THEIR CHILDREN IN HIGHER-
 PERFORMING SCHOOLS IN THE DISTRICT OF COLUMBIA, AND FOR OTHER PURPOSES

                               __________

                             JUNE 24, 2003

                               __________

                           Serial No. 108-37

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-506 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2003....................................     1
Text of H.R. 2556................................................     8
Statement of:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio..............................................    47
    Paige, Rod, Secretary of Education, U.S. Department of 
      Education..................................................    55
    Williams, Anthony, Mayor, District of Columbia...............    69
Letters, statements, etc., submitted for the record by:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    50
    Burton, Hon. Dan , a Representative in Congress from the 
      State of Indiana, prepared statement of....................    31
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   103
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia:
        Information concerning average per pupil funding.........    41
    Prepared statement of........................................    44
    Paige, Rod, Secretary of Education, U.S. Department of 
      Education, prepared statement of...........................    58
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    27
    Williams, Anthony, Mayor, District of Columbia, prepared 
      statement of...............................................    73


 SCHOOL CHOICE IN THE DISTRICT OF COLUMBIA: OPENING DOORS FOR PARENTS 
                              AND STUDENTS

                              ----------                              


                         TUESDAY, JUNE 24, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:02 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Burton, Mica, Ose, Davis of 
Virginia, Platts, Putnam, Schrock, Miller of Michigan, Murphy, 
Carter, Janklow, Blackburn, Waxman, Kucinich, Clay, Watson, Van 
Hollen, and Norton.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Scott 
Kopple, deputy director of communications; Mason Alinger and 
Victoria Proctor, professional staff members; Teresa Austin, 
chief clerk; Joshua E. Gillespie, deputy clerk; Shalley Kim and 
Jason Chung, legislative assistants; Brien Beattie, staff 
assistant; Phil Barnett, minority chief counsel; Rosalind 
Parker, minority counsel; Anna Laitin, minority communications 
and policy assistant; Earley Green, minority chief clerk; Jean 
Gosa, minority assistant clerk; and Cecelia Morton, minority 
office manager.
    Chairman Tom Davis. The committee will come to order.
    The condition of District of Columbia Public Schools has 
concerned me since I first came to the Congress and became 
chairman of the District of Columbia Subcommittee in 1995. 
While we've made strides since then, the D.C. College Access 
Act and the establishment of charter schools, for example, the 
condition, quality, and improvement of the educational 
opportunities in the Nation's Capital should remain a constant 
concern for all of us.
    In 1995, Congress enacted the District of Columbia School 
Reform Act, which set up the framework for the District to make 
major progress in selected areas of education reform. About 8 
years have passed since enactment of this legislation, but the 
school system has not shown the rate of improvement I think we 
would have liked.
    We're not here to disparage the District's school system. 
We're here to lend a helping hand to students who are stuck in 
underperforming schools. Too many students are leaving 3rd 
grade unable to read. These are children who will never have 
another shot at 3rd grade.
    In 1999, Congress passed the D.C. College Access Act, 
legislation which I authored that has helped defray tuition 
expenses for District of Columbia high school graduates who 
seek higher education. It has leveled the playing field and 
brightened the futures of thousands of young adults, but now we 
need to reach more students, and reach them earlier. We can't 
optimize the impact of the College Access Act if we're unable 
to succeed at the elementary and secondary levels.
    The current condition of D.C. public schools can leave a 
child isolated and discouraged. Before students become 
disenchanted, before they forget forever the joy of learning, 
we need to provide every opportunity to keep them engaged. How 
can we expect students to dream of higher education if their 
experience in the lower grades is fraught with disappointment, 
with violence, with low expectations? Unfortunately, we can't.
    The ability of D.C. schools to meet its core goals has long 
been challenged by financial mismanagement and an array of 
other issues. Current efforts to improve academic performance 
have not yielded tangible results. Poor academic achievement 
scores are one clear indicator. Many students lack basic 
language and math skills. Standardized reading and math test 
scores remain stagnant. The average D.C. SAT combined score, 
verbal and math, is 799 while the national average is 1,020. 
The dropout rate is about 40 percent. The physical condition of 
many schools is unacceptable.
    Between the 1997-1998 school year and the 2000-2001 school 
year, the number of assaults with deadly weapons in the public 
school system jumped from 66 to 127. The number of simple 
assaults increased from 384 to 475. The number of students 
bringing concealed weapons to school increased from 329 to 423. 
The number of threats against students and staff members 
increased from 156 to 225. How can we look parents in the eye 
and say that this is the best we can do for these children?
    These are schools that few of us on this committee would 
send our own children to, and that few, if any, members of the 
D.C. Council would send their children to. How on Earth can we 
require low-income families in the District to do something 
that we ourselves would not do?
    The goal of school choice in the District of Columbia is 
addition, not subtraction. With choice, we hope to lift all 
boats. The scholarships we envision will be a boon to public 
and charter schools as well.
    There is no one here today who doesn't want the District's 
education system to improve. I've come to the conclusion that 
parents and students who are stuck in underperforming schools 
need--no, they have the right to choose from a wider pool. I 
have received calls from parents who are frustrated, angry, 
even emotionally distraught by the condition of their child's 
school. It's time to do more than sympathize. This is a moral 
imperative, and it's in our hands.
    Low-income families concerned about quality and safety in 
public schools should be allowed the choice to send their 
children elsewhere. A parent shouldn't have to send a child to 
a school that continually lets them down, day after day, year 
after year. I've met with a number of D.C. parents over recent 
weeks who are asking for relief, for hope, for choice. The 
legislation Chairman Boehner and I introduced yesterday 
responds to their pleas.
    The school choice debate shouldn't be about politics. It 
should be about an honest appraisal of the state of affairs in 
our public schools in the District, and about offering an 
alternative for students and parents who want a fair share of 
opportunities. What is being proposed is not a mandate, it's a 
choice. We began down this road of expanded choice when we 
approved charter schools in the District. But while charter 
schools are good, they are not good enough, not yet anyway. As 
the Washington Post reported just last week, there is not yet 
any evidence that the District's charter schools are doing a 
better academic job than their DCPS peers.
    Some are making a mountain out of a molehill over the fact 
that this legislation authorizes funding for school choice, but 
not enhanced funding for D.C. public schools or charter 
schools. The reason for this is very simple. This bill deals 
with authorization for a new and historic program. 
Authorization for spending on D.C. public schools and charter 
schools and additional aid, that authorization already exists. 
The debate will be over how high that spending should be, and I 
think it should be higher, and I think it will be higher at the 
end of this journey.
    Reforming and improving education in the District of 
Columbia will require a multifaceted approach, to be sure. 
School choice is not the panacea; it's just a critical part of 
the answer and the specific focus of this hearing and this 
legislation. But let me state for the record that I am 
committed to working with the Mayor, the council, the 
administration, and Members of Congress to reaffirm our 
commitment to public and charter schools in the Nation's 
Capital. That's just not the issue we're tackling at today's 
hearing.
    With this legislation, we are not turning our back on the 
District's public education system. We are nurturing it, 
bolstering it, giving it the encouraging push we all agree it 
needs. D.C. parents are asking for our help, and we'd be wrong 
to not at least discuss it with them.
    We need to pause for a moment to take note of the historic 
nature of our hearing today. We have two Republican full 
committee chairmen in agreement with a Democratic mayor of the 
District over the best course of action for District of 
Columbia. We've already come a long, long way.
    I want to recognize other Members who have been 
instrumental in bringing this important issue to the forefront, 
including Representative Jeff Flake, who testified at an 
earlier committee meeting on the school choice, and the Members 
who have co-sponsored the current legislation. I appreciate the 
support of Representatives Chris Shays, John Carter, Adam 
Putnam, Dave Weldon, William Lipinski, Joe Wilson, Vernon 
Ehlers, Jim DeMint, and Roger Wicker, among others.
    I welcome all the witnesses to today's hearing, and I look 
forward to their testimony. And let me say to our guests in the 
audience, we're happy to have you here, but expressions at this 
point, outward expressions of cheering or booing, we will not 
tolerate. But we are happy to have you here to be a part of 
this historic hearing.
    [The prepared statement of Chairman Tom Davis and the text 
of H.R. 2556 follow:]
[GRAPHIC] [TIFF OMITTED] T8506.001

[GRAPHIC] [TIFF OMITTED] T8506.002

[GRAPHIC] [TIFF OMITTED] T8506.003

[GRAPHIC] [TIFF OMITTED] T8506.004

[GRAPHIC] [TIFF OMITTED] T8506.055

[GRAPHIC] [TIFF OMITTED] T8506.056

[GRAPHIC] [TIFF OMITTED] T8506.057

[GRAPHIC] [TIFF OMITTED] T8506.058

[GRAPHIC] [TIFF OMITTED] T8506.059

[GRAPHIC] [TIFF OMITTED] T8506.060

[GRAPHIC] [TIFF OMITTED] T8506.061

[GRAPHIC] [TIFF OMITTED] T8506.062

[GRAPHIC] [TIFF OMITTED] T8506.063

[GRAPHIC] [TIFF OMITTED] T8506.064

[GRAPHIC] [TIFF OMITTED] T8506.065

[GRAPHIC] [TIFF OMITTED] T8506.066

[GRAPHIC] [TIFF OMITTED] T8506.067

[GRAPHIC] [TIFF OMITTED] T8506.068

[GRAPHIC] [TIFF OMITTED] T8506.069

[GRAPHIC] [TIFF OMITTED] T8506.070

[GRAPHIC] [TIFF OMITTED] T8506.071

[GRAPHIC] [TIFF OMITTED] T8506.072

    Chairman Tom Davis. I would now recognize the distinguished 
ranking member, Mr. Waxman, for his opening statement.
    Mr. Waxman. Thank you very much.
    Mr. Chairman, the core concern motivating today's hearing 
is the need to ensure the best academic opportunities for 
District of Columbia young people.
    At the outset, Mr. Chairman, I want to commend you for your 
interest in this issue. I also want to particularly note 
Congresswoman Norton's continuing leadership and tireless 
efforts to support and improve the public education system in 
the District of Columbia.
    In recent years, the District of Columbia has taken 
important steps forward in providing D.C. youths with a system 
of school choice, while at the same time avoiding the pitfalls 
of a voucher system. There are now 42 public charter schools 
and 15 transformation schools in the District. Although the 
effort to develop this alternative system is ongoing, the 
charter and transformation schools have already seen 
significant success.
    Today, we will be discussing a congressional proposal to 
create a school voucher program in the District. I believe that 
Congress should do everything possible to support the 
District's efforts to promote public education opportunities 
for the District's youth. I do not believe, however, that 
imposing a voucher system on the District advances this goal.
    One problem is that school voucher measures raise serious 
Constitutional concerns regarding using public funds for 
religious education.
    Another is that voucher plans generally do not provide 
sufficient funding for students who want to attend private 
school without depleting funds from the public school system, 
where most children would continue to be educated.
    With respect to creating a voucher program specifically for 
the District, there is the additional concern that such a 
proposal threatens home rule. It is questionable that Congress 
should impose any educational system on the District of 
Columbia.
    Mayor Williams has indicated that any additional funds for 
a voucher program need to be combined with additional funds for 
the District's current public school system. I was encouraged 
to hear your comments, Mr. Chairman, that you think more funds 
will be made available. Yet, the proposed D.C. voucher measure 
would establish a $15 million program without provision for 
additional funds for the District D.C. public school system. We 
have to wait and see if the Appropriations Committee would do 
better.
    I hope that this committee will do everything it can to 
support the public education system in the District to help 
ensure that all children in the District have an equal 
opportunity to quality education. Thank you.
    Mr. Davis. Thank you, Mr. Waxman.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.005
    
    [GRAPHIC] [TIFF OMITTED] T8506.006
    
    Chairman Tom Davis. Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    I can't for the life of me understand why anyone would 
oppose a parent putting their child in a school that's going to 
achieve what they want to achieve while taking them out of a 
school where the child has been underachieving because they 
haven't been getting the kind of education that the parent 
wants. School choice is a very important issue, and I think 
it's our duty, as Members of Congress and at home as parents 
and grandparents, to leave no child behind as the President has 
said.
    I believe that school choice initiatives can bring the 
promise of freedom, opportunity, and hope to thousands of 
children trapped in failing schools, not only here, but across 
the Nation. The idea of school choice is nothing new. For 
years, well-off parents have had the choice to send their 
children to private or parochial schools. At the collegiate 
level, Pell Grants expanded the concept of school choice to 
underserved students in 1972, 31 years ago. Eligible military 
personnel have had the assistance of the Montgomery GI bill 
that has allowed them to attend the public or private college 
of their choice.
    If it's a good idea to give underprivileged students a 
choice in higher education, why not help children from low-
income families attend the grade school of their choice? I 
think that it is just as important to help students in their 
formative years of their education as well as in their later 
years. We must lay a solid foundation on which these children 
can build their education.
    Academic performance in the District of Columbia has been 
on the decline for quite some time, and overall spending for 
special education has increased dramatically in recent years. 
In an effort to alleviate this problem, the D.C. Parental 
Choice Incentive Act of 2003 has been proposed by our colleague 
and this committee's chairman, the distinguished gentleman from 
Virginia, Mr. Davis.
    The main objective of the bill is to provide families with 
options for their children's education. This measure does not 
require parents to send their children to private schools, but 
would enable parents of children in underperforming schools 
within a District to have the option to select and move their 
children to schools with a better record of educational 
quality. And what is wrong with that? I cannot figure out 
what's wrong with that. Unfortunately, this legislation and the 
efforts to improve the crumbling D.C. school system has come 
under fire by some challengers of the school choice.
    Many of the opponents of school choice measures would have 
you believe that giving vouchers to disadvantaged children to 
attend private institutions would undermine the public school 
system. But what about undermining a child's education or 
hindering their potential to succeed? I believe our top 
priority should be protecting the best interests of our school 
children, not preserving the last vestiges of a failing school 
system. That should be what we discuss today. If your child is 
in a school that is not performing and the child is not getting 
the education, a parent ought to have the right to put that 
child in a system that is going to educate that child properly 
so that they have an equal opportunity to succeed in later 
life.
    In addition, it has been shown time and time again that 
many of the opponents of school choice don't send their own to 
public schools. In D.C., only one--only one of the city council 
members, Ms. Carol Schwartz, is known to have sent her children 
to D.C. public schools. What kind of a message are the D.C. 
council members sending to the parents of children who can't 
afford to send their kids to private schools? I will tell you 
what they are saying, Mr. Chairman. They care about their own 
children, but they care a lot less about the children they 
represent.
    Today, we will hear testimony from the Honorable Mayor of 
Washington, DC, Mr. Anthony Williams. He has been very 
outspoken and courageous in the fight to give disadvantaged 
parents the power of choice when it comes to their children's 
education. At the last hearing before our committee on this 
issue, Mayor Williams stated, ``I believe research has 
confirmed that school vouchers increase parental satisfaction, 
boost academic achievement of inner city African-American 
students, and increase the likelihood that students will attend 
and complete college. No research, to my estimation, has proven 
that voucher programs are detrimental to the students who 
participate in them.''
    I would like to thank Mr. Williams for agreeing, once 
again, to testify before us.
    In addition to Mayor Williams, I look forward to hearing 
from the distinguished Secretary of Education, the Honorable 
Roderick Paige, as well as the chairman of the House Committee 
on Education, my good friend and colleague, Congressman John 
Boehner of Ohio. I really appreciate your taking time out of 
your busy schedules to come here and be with us today. You are 
doing the Lord's work to help these kids.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.007
    
    [GRAPHIC] [TIFF OMITTED] T8506.008
    
    [GRAPHIC] [TIFF OMITTED] T8506.009
    
    [GRAPHIC] [TIFF OMITTED] T8506.010
    
    [GRAPHIC] [TIFF OMITTED] T8506.011
    
    [GRAPHIC] [TIFF OMITTED] T8506.012
    
    [GRAPHIC] [TIFF OMITTED] T8506.013
    
    [GRAPHIC] [TIFF OMITTED] T8506.014
    
    Chairman Tom Davis. Thank you, Mr. Burton.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    And welcome to our colleague, Representative Boehner, and 
to Secretary Paige, and our own Mayor, Mayor Williams.
    We have before us a very slim vouchers only bill. It must 
disappoint D.C. officials considering what they desired and 
even the great expectations that have been stated or raised in 
exchange for accepting vouchers, a takeover by the Federal 
Government of all or most of the $255 million in special 
education funding, as D.C. council education chair Kevin 
Chavous told me and his council colleagues, or many millions in 
assistance which the operations, as the Mayor indicated that he 
hoped for at a meeting. Putting aside these clearly unreachable 
heights, Mayor Williams deserves credit for responding to the 
concerns of a city-wide coalition of parents and educators who 
want some new funds for public and charter schools. We all want 
to thank him for persisting in this effort.
    Our compassionate Cardinal, Theodore McCarrick, while 
wanting vouchers for his Catholic schools, yesterday said in a 
statement, ``as Archbishop of Washington, I've always believed 
that a stand-alone voucher bill will not adequately care for 
the educational needs of all our city's children. We will only 
support legislation that helps all families in our cities, 
including those with children at public schools.'' The 
Cardinal, whose schools most of these children would attend, 
does not support H.R. 2556; nor should anyone else.
    I have been a strong supporter of our Catholic schools in 
particular, and I am grateful that so many of them still remain 
open in this and other big cities. I have also strongly 
supported the Washington Scholarship Fund, which has put its 
money where its proverbial mouth is by raising private funds 
for scholarships to send our children to private schools. I 
have visited our children in the Catholic schools that have 
accepted Washington Scholarship students and spoken at their 
graduations. As many Catholic school parents who pay full 
tuition and our Catholic elementary and secondary schools will 
attest, I am fond of telling them that I and other D.C. 
residents owe them twice over. They have remained in D.C. when 
many have fled to the suburbs for better schools. And, they pay 
our considerable taxes plus tuition at private schools.
    Cardinal McCarrick knows he and I disagree on vouchers, but 
he is a much respected and admired friend. Particularly at a 
time when both the District and the Federal Government have cut 
our public schools, he knows that it is wrong for the Federal 
Government to fund private schools without including publicly 
accountable schools that qualify under the language of the 
President's budget.
    Yet, the bill before us has shrunk incredibly even before 
it was introduced. It began at $30 million for vouchers only, 
now cut in half to $15 million for vouchers only, while those 
who will actually decide the amount in the Appropriation 
Committee have approved only $10 million. No one on an 
authorizing committee is in a position to guarantee funding, 
much less additional funds. The single focus of this bill on 
vouchers comes as no surprise from a majority that has been 
bent on imposing vouchers on the District for years, always 
over the objection of the majority of District officials, whose 
resolutions have opposed vouchers even using additional Federal 
funds.
    The most serious problem with the proposed vouchers has yet 
to be discussed or to be taken seriously. Our traditional 
public and charter schools will be hit hard financially if the 
predicted 2,000 students exit in the fall. Our public school 
will lose a combination of $12,557 per pupil in both D.C. and 
Federal funds, because every school system must be funded on a 
per pupil basis. This would be a blow to D.C. public school 
funding they simply cannot afford today.
    The argument may be made that any price should be paid, 
even one at the expense of our public schools to allow a few 
children to go because D.C. children perform better in private 
schools than in D.C. schools. I noted, however, that unlike 
many voucher advocates, the Cardinal made no such claim in his 
statement. However, voucher advocates, including Secretary 
Paige's testimony today, often cite the performance of our 
children in the D.C. public schools as the reason they must go 
to private schools, as if this change would improve their 
performance. Even the pro-voucher study the Secretary cites, at 
page 5 of his testimony, that shows 2 years of gains for D.C. 
children using privately funded vouchers, goes on to show that 
those gains disappeared in the third year. More seriously, only 
29 percent of the children remained in those schools at the end 
of the third year, raising serious issues about what our 
children need in those schools.
    I do not cite these results to show that our private 
schools are a failure, nor does the 10-year GAO study of public 
and privately funded voucher programs that found no evidence of 
test gains for children in private or over public schools. The 
hyperbole needs to stop because it cheapens the serious story 
of why so many of these children do poorly and what needs to be 
done. Claims about the District, such as found in the Davis 
press release on this bill that, ``current spending per pupil 
excludes all but a handful of school districts in the 
country,'' are refuted by the numbers, and I ask permission to 
insert this evidence in the record rather than lay it out.
    Chairman Tom Davis. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.015
    
    [GRAPHIC] [TIFF OMITTED] T8506.016
    
    Ms. Norton. Such comparisons don't even touch the 
intractable causes of the problems many of our children face. 
In this city, the average kid comes from a poor or modest 
single-parent home, and huge numbers bring problems to school 
that ordinary services in either public or private schools have 
not overcome. The best hope for our low-income children are not 
vouchers. The transformation schools that surround these 
children and their parents with city services, including 
tutoring for the children and special services for the parents, 
are the closest thing to a breakthrough we have achieved in the 
District of Columbia. All 15 transformation schools have 
improved their Stanford 9 scores. The extra services these 
children get are available in none of the other D.C. public 
schools or private schools. These are our poorest children, 
often with the least motivated parents. The least any bill 
should do is to encourage and fund the improvements we see for 
the first time in these children.
    Tonight I am hosting a town meeting for a hearing by the 
10-member Commission on Black Men and Boys I established a few 
years ago. It is part of work I began 30 years ago when the 
Moynihan report made it difficult for too many to talk about 
the deterioration of African-American family. Although the 
Black community has long since found its voice on the problems 
of family life, the downward spiral of children without fathers 
and often without the mothers they deserve, continues. Family 
dissolution has had devastating effects on our children, and it 
is at the root of virtually every problem of the Black 
community. While doing much to strengthen Black family life, 
our major recourse lies with publicly accountable schools.
    The District is seldom ahead of the rest of the country, 
but in the District, no child must attend a failing school. For 
decades, the District has had out-of-boundary privileges. Its 
transformation schools have achieved an important breakthrough 
in test scores and all-important parental involvement. Parents 
are literally clamoring. Here is today's Washington Times, 
``clamoring to get their kids in the 42 charter schools.'' In 
addition to the almost 12,000 we have, we've got 11 trying to 
get in new charter schools. Where is the money for them? And it 
says, according to the Washington Times, an additional 6,200 
students are trying to get in these schools. Many of them are 
going to be put on waiting lists. Who in the world would not 
want to give them first preference for any money that the 
Federal Government has to offer? For creating a virtual 
alternative system to the D.C. public schools, H.R. 2556 should 
reward the city with desperately needed funds for its publicly 
accountable schools, not exclude them.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T8506.017

[GRAPHIC] [TIFF OMITTED] T8506.018

[GRAPHIC] [TIFF OMITTED] T8506.019

    Chairman Tom Davis. Let the Chair state again, this is an 
authorization hearing. I believe more money will be forthcoming 
for both the charter schools and the public schools at the end 
of this, and I think I've made my position very clear, as has 
the administration, on that issue. But the purpose of this 
hearing is to talk about one segment of that that stands alone, 
and that is a new authorization for a D.C. choice program.
    Members will have 5 legislative days to submit opening 
statements for the record, and I would like to move to our 
panel of witnesses. We have Congressman John Boehner, the 
chairman of the House Education and the Workforce Committee; 
Secretary of Education, Rod Paige; and Mayor Anthony Williams.
    And Secretary Paige, we appreciate you flying in from 
Europe last night. You may have a little jet lag. You need to 
leave at 3:45, and the Mayor needs to leave at 4 p.m. So if you 
would rise with me, I will swear you in and we can start the 
hearing. And we will start with Mr. Boehner.
    [Witnesses sworn.]
    Chairman Tom Davis. I again want to thank all of you for 
taking time to be with us on this very, very important issue 
and take questions.
    Chairman Boehner, I will start with you. Thank you for your 
leadership on this issue.

STATEMENT OF HON. JOHN A. BOEHNER, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Boehner. Mr. Davis, Mr. Waxman, members of the 
Government Reform Committee, thank you for this opportunity 
today to talk about one of the most important issues in 
education. I'm glad to be here with Secretary Rod Paige, who 
over the last 2\1/2\ years we've worked closely together on the 
President's No Child Left Behind bill, and someone who could 
talk about the historic achievements that this administration 
has made in terms of having all 50 States in compliance with 
the new law. He is a great man and knows a little bit about 
this subject.
    And I am also happy to be here with the Mayor. The Mayor, 
in my view, as someone who has lived here for 12\1/2\ years, 
has done a marvelous job. He has shown real courage to deal 
with problems in this city that have long been shoved under the 
carpet. And his efforts on behalf of children in the District 
of Columbia are also commendable.
    In my written testimony, I outlined, as the chairman did, 
some of the problems that we see in the D.C. schools. Kids 
aren't learning, pure and simple. We are spending a great deal 
of money, $9,600, $9,700 per student, more than you will see 
spent in most districts in America, frankly, most urban 
districts in America. But I think one of the bigger problems 
that we have with the D.C. schools is what President Bush 
described as, low expectations are nothing more than soft 
bigotry.
    No child in America deserves less than what our children 
get today. No child. I happen to have 11 brothers and sisters. 
My dad owned a bar. They didn't have any money. They decided to 
send us to parochial schools. My wife and I decided to send our 
kids to public schools. But none of us would be in this room 
today if we didn't have loving parents, and if we hadn't gotten 
a decent education. And when we look at the problems in D.C., 
and the Mayor is doing all that he can, we have a 
responsibility as Members of Congress to help the Mayor deal 
with these issues and deal with them today. These are children.
    I've been in public life for 20 years. I used to ask myself 
the question, how can we watch kids being moved from one grade 
to the next whether they have learned anything or not? How can 
we give kids a diploma when we're not really sure that they can 
read? And, on the part of public policymakers, I would describe 
this as criminal neglect. And the Secretary and I and the 
President dealt with it when we dealt with No Child Left Behind 
to bring real accountability to all of America's schools. And 
the fact is that 80 percent of our kids in America are going to 
go to public schools. We've got to do everything we can to help 
improve public education. Now, I believe that the President, 
the Secretary, and the Congress are trying to do just that.
    But let's not say that's the only answer. Some 20 percent 
of our kids go to private schools. But this debate today isn't 
about the bureaucracy, isn't about the problems in all of these 
schools. It's about kids. And kids that don't get an education 
have no chance. Ms. Norton has been in some of those schools, 
I've been in some of those schools. I'm sure Mr. Davis has been 
in some of those schools. And you see poor kids who have no 
choice sitting there rotting in school and knowing they will 
never have a future. That is one of the most depressing things 
I've ever seen in my entire career.
    You know, I've done a lot in my life. I've been successful. 
I've been fortunate. I'm here. But at some point in my life, 
I'm going to grow up and do something else. Now, I don't know 
what that's going to be, but I can tell you one thing I'm going 
to do the rest of my life, and that is that I'm going to spend 
part of the rest of my life doing everything I can to make sure 
that poor kids have the same chance in life that we did. If we 
didn't have a good education, we wouldn't have been here. And 
that's what this debate here is about. We have a difficult 
problem here. We are trying to help the public schools. And I 
think that the D.C. School Choice bill that we have will give 
2,000 kids--we're not taking everybody out of the D.C. 
schools--2,000 kids a chance.
    Why is school choice good? It provides competition. 
Competition makes all of us better. Public education in too 
many parts of America today is nothing more than a monopoly. We 
all know what happens to monopolies, they get large, they get 
bureaucratic, they get inefficient, and they lose their 
mission. Competition makes all of us good. And, second, why not 
give these kids a chance? Why not give them a chance to be 
successful? As I said before, we have choice because we have 
had income. But for poor kids from poor neighborhoods, they 
don't have that choice. It isn't the kids' fault they lost the 
lucky lottery of life in terms of who their parents were or 
what neighborhood they happened to grow up in or what school 
they happened to be assigned to. And so for those kids and 
those parents who want to take this option, let's give it to 
them.
    I've worked closely here in Washington with the D.C. 
Parents for School Choice and the Washington Scholarship 
Foundation. Today, they are going to have their picnic over in 
the Senate park. And you want to really learn something about 
what D.C. school choice means? Go over there to the picnic 
today, and look into the eyes of these mothers and grandmothers 
who will be over there hoping, literally on the edge of tears, 
hoping that their child's name will be drawn from this hat so 
their child will have a chance to escape and have a chance to 
succeed in life. Go over there. Go over to the Senate Park at 
3:30, they'll be there until 8 p.m. tonight. When you look into 
their eyes, it will tell you how bad these schools are and how 
badly these parents and these grandparents want a future for 
their kids. And, for goodness sakes, what parent or grandparent 
wouldn't want the best for their children?
    So I would just say to all of you, what do we have to fear? 
Do we fear the competition? Do we fear that some kids are going 
to succeed? I don't think so.
    We all know that a good education is the foundation for a 
success. And a good education is the only chance that we are 
going to have for a chance at the American dream. We don't have 
anything to fear. Let's help these kids.
    Chairman Tom Davis. Thank you very much, Chairman Boehner.
    [The prepared statement of Mr. Boehner follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.020
    
    [GRAPHIC] [TIFF OMITTED] T8506.021
    
    [GRAPHIC] [TIFF OMITTED] T8506.022
    
    [GRAPHIC] [TIFF OMITTED] T8506.023
    
    [GRAPHIC] [TIFF OMITTED] T8506.024
    
    Chairman Tom Davis. Secretary Paige, thanks for being with 
us.

STATEMENT OF ROD PAIGE, SECRETARY OF EDUCATION, U.S. DEPARTMENT 
                          OF EDUCATION

    Secretary Paige. Thank you.
    Chairman Davis and members of the committee, thank you for 
the opportunity to appear before you today to discuss the 
proposal before us to improve student achievement in the 
District of Columbia through expanding school choice. I am 
pleased to be here with my dear friend, Congressman Boehner, 
and our great Mayor, Mayor Anthony Williams, both men of 
incredible courage and vision. I know they believe, as the 
President does and as I do, that education is a civil right 
just like the right to be treated equally or the right to vote. 
And as President Bush often says, educating our children is the 
most important thing we can ever do as a Nation, and we must 
get it right.
    Thank you, Mr. Chairman, and many others on the committee 
and in Congress. Thank you, because we are getting it right.
    I am happy to join you in this courageous step in education 
reform. Some 18 months ago, President Bush signed into law the 
No Child Left Behind Act of 2001. No Child Left Behind says 
loud and clear: We as a Nation will teach every child well. Not 
just some of them, every one of them, because every child 
deserves a quality education. We have raised the bar. Now, 
nothing less than great schools worthy of a great Nation will 
be settled for.
    At one time in this city's history, the schools were 
considered to be the best in the Nation. We'd be pretty hard-
pressed to make that point today, but I believe, and I think 
Mayor Williams agrees with me, that this can happen again, and 
the D.C. schools can once again be a place of high standards 
and high expectation. I say that with full respect for 
Superintendent Vance and with appreciation of what he is trying 
to accomplish, but children's lives are at stake now. And what 
this administration is saying is, let's stop wringing our hands 
and start fixing the problem. And here is how we propose to do 
it. We start by forming a partnership with the city to ensure 
that all its children receive a good education, and offer 
meaningful options for those most likely to fall behind.
    Choice is essential for authentic public school reform. 
Monopolies don't work. We have known this since the Great Wall 
of China. And I will tell you why. Our society today is a most 
choice-saturated society of all times. Look at the world we 
live in. Instant messages, 24-hour news, personal Web sites, 
global markets, overnight express, E-commerce. Every day we can 
fill our own personal whims exactly the way we like them to be. 
We can decide what we want to see, what we want to hear, what 
we want to do. And the world is moving toward more choice, not 
less, and the great institutions of this Nation and of this 
world are those who have taken advantage of this phenomenon and 
provided these choices for their customers.
    Now, that is, unless you are poor. In that case, you look 
around you and you see many in society speeding into the 
future, but not you. If you are poor, while you are trying to 
get a handle on the present you see others going ahead. 
Education that is a given for many is a struggle for you if you 
are poor. And you want a better life for your kids, but you 
look at their schools and you know that a snowball has a better 
chance.
    Many of the parents in the District who can afford it send 
their children to some of the finest private schools in the 
Nation that happen to be right here in this District. But most 
parents in the District don't have that luxury because they 
don't have the finances. They get what is dished out to them.
    In my mind, this is one of the most awful sins we can 
commit as a society, to trap children, to deliberately chain 
them to schools that are failing them, to schools that say they 
don't count. In President Bush's book, they do count; every 
child counts. That is why his 2004 budget requests more money 
for National Choice Incentive Fund, to provide choice 
scholarships to low-income children to transfer to high-
performance schools. These scholarships will allow moms and 
dads to send their children to schools where they can really 
learn and really succeed.
    I am proud to say that the D.C. leadership is in our corner 
on this issue. Mayor Williams, the president of the school 
board, Councilman Chavous, all understand that we must improve 
our schools. They know what we know and what every parent knows 
and what every parent wants: Education is the key to the 
success of our children. And the one that they receive in the 
K-12, sets the stage for the rest of their lives.
    The U.S. Supreme Court has said that choice is legal. 
Places like Milwaukee have tried choice and have been 
successful. They have seen students move forward. I think the 
words of John Gardner, the former Milwaukee School Board 
president, put it best when he says, ``school choice works.'' 
He admits that he was a left-wing organizer for 30 years and 
experienced in labor unions and workers cooperatives in poor 
communities. And he said: I knew working class and poor people 
did not want to make the choice between the public school 
systems and choice. They want both.
    This is not an either/or. Our goal is to improve the 
quality of the public school systems. Because even as we speed 
into the future, we see multiple delivery systems, cyber 
schools, home schooling, private schools, church schools, the 
public schools. The public school system is always going to be 
the heavy lifter here, but we cannot have them working their 
best, become bogged down in this bureaucracy. John Gardner saw 
what I saw when I worked in Houston, choice works.
    Now, some would say, let's wait until we get the public 
schools right. The problem with that is, that's going to take a 
while. Turning around a failing school system is no cake walk, 
but it can be done and is being done. But what's going to 
happen to the children while we are waiting for this to get 
done? I believe choice can save this one as it has saved 
others.
    Let me close with a thought from Howard Fuller, another 
former superintendent who worked the Milwaukee schools. Dr. 
Fuller and I headed the Institute for Transformation of 
Learning in Lockhead University, and he had this to say, ``In 
America, it's virtually impossible for our children to bring 
their dreams into reality without an education. Unfortunately, 
far too many of our children are not only having their dreams 
deferred, they are having them destroyed. They are being 
destroyed by educational systems that are undereducating them, 
miseducating them, and pushing them out by the thousands every 
day. We must have a sense of urgency in this matter.'' We must 
speed this change up.
    The goal of this administration is excellence for every 
child, with no child left behind. That means all. All means 
all. And I believe this proposal will empower low-income 
parents to make the choices that they need for their children 
to have a wonderful opportunity for an education.
    And I appreciate you letting me make those comments, Mr. 
Chairman. Thank you very much.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Paige follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.025
    
    [GRAPHIC] [TIFF OMITTED] T8506.026
    
    [GRAPHIC] [TIFF OMITTED] T8506.027
    
    [GRAPHIC] [TIFF OMITTED] T8506.028
    
    [GRAPHIC] [TIFF OMITTED] T8506.029
    
    [GRAPHIC] [TIFF OMITTED] T8506.030
    
    [GRAPHIC] [TIFF OMITTED] T8506.031
    
    [GRAPHIC] [TIFF OMITTED] T8506.032
    
    [GRAPHIC] [TIFF OMITTED] T8506.033
    
    [GRAPHIC] [TIFF OMITTED] T8506.034
    
    [GRAPHIC] [TIFF OMITTED] T8506.035
    
    Chairman Tom Davis. Mayor Williams, thank you very much for 
being with us.

   STATEMENT OF ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA

    Mayor Williams. Yes, sir. Good morning.
    Chairman Davis and members of the committee, certainly our 
own Congresswoman Norton. Thank you so much, as well. I greatly 
appreciate, in fact, the leadership support and encouragement 
that you provided our city, and look forward to our continuing 
partnership as we work together to accomplish even greater 
initiatives for our city.
    I think our recent evaluation by the credit markets 
yesterday in raising us in investment grade to A-minus is a 
testament to our ability to work together with everything from 
the Control Act to the Revitalization Act. And I look forward 
to our continued partnership.
    I am also pleased to be here today with Congressman Boehner 
and certainly Secretary Paige to discuss school choice, and in 
so doing expanding educational options for parents and students 
in our city.
    Now, I want to start off by acknowledging that many good 
things are happening in our schools. The DCPS under the 
leadership of Superintendent Paul Vance and Peggy Cooper 
Cafritz as our president has launched an initiative to 
transform our lowest schools, infusing them with new 
leadership, staff, and additional resources. We now have 
identified 15 of these transformation schools, and early 
indications show us they are making difference. As you know, 
the District also has a very robust public charter school 
movement. We believe it's the strongest in the Nation. We 
currently have 42 charter schools which provide approximately 
11,500 students with many approaches to learning, including 
individualized instruction, small academies, and schools within 
schools.
    Thus, despite the steady increases in local funding and 
other efforts to support our public schools, I have heard 
first-hand from hundreds of parents who feel that, one, there 
are alternatives and they like these alternatives, but also 
feel there are no practical or easy alternatives for their 
children within the current system of public schools. And this 
gets us to the crux of the matter. Our dynamic Transformation 
Schools Initiative, our Liberal Out-of-Boundary Enrollment 
programs, and our robust charter schools are providing real 
choices for parents, but there are still countless students 
whose schools are not among those on the first track to 
transformation and for whom there are no practical charter 
school alternatives. Even if we are successful in increasing 
the tempo of these initiatives--and we are going to do 
everything we can to do so--there will be tens of thousands of 
students still waiting for more choices. And I, as Mayor of 
this city, cannot tell parents that they must continue to wait 
while there are outlets within our grasp.
    In short, we need to reexamine the way we do business. 
Councilman Chavous has noted this. It is time that we explore 
other solutions to ensure that every child has access to a 
quality education in our city. And I, as Mayor of this city, 
can't ignore other alternatives that are at our disposal and 
within our grasp. Along with Council Chair Chavous of the 
Education Committee, and I mentioned Peggy Cooper Cafritz, I 
support a three-tier approach that would focus new Federal 
resources toward increasing the availability of quality 
education options for District students and families. This 
strategy would require a significant and ongoing investment 
toward the following: One, the development of a federally 
funded scholarship program for students to attend nonpublic 
schools. Two, permanent and predictable support for the DCPS 
targeted at leadership, instructional excellence, and student 
achievement. And, finally, a fiscally sound and comprehensive 
approach to the acquisition and renovation of our charter 
schools because the demand far outstrips the supply in terms of 
charter school facilities.
    I don't believe that there is such a thing as too many good 
educational options for our children. In other words, we should 
strive for a situation where all the city's educational assets 
complement each other and offer parents positive choices beyond 
a one-size-fits-all paradigm. I hope that Congress will adopt 
and fund initiatives to make this city a national model of 
public and private school choices and urban education. We have 
the opportunity, not later, not in the past, but we have an 
opportunity right now to embrace a new vision for the education 
of African-American, Latino, and lower-income children from all 
backgrounds in all areas of our city.
    Now, understandably, the issue of public support for 
private and parochial school tuitions raises fierce emotions on 
both sides, but there is a large body of research that speaks 
to its merits, at least it speaks to me.
    Dozens of studies, including those conducted by voucher 
opponents, have confirmed that school vouchers increase 
parental satisfaction with their child's school and boosts the 
academic achievement of inner-city African-American students. A 
recent study prepared by a team led by William Howell and 
Patrick Wolf surveyed more than 1,000 African-American students 
in the District who attend nonpublic schools through support 
from the Washington Scholarship Fund. These students gained 
almost 10 national percentage points [NPR], in math and reading 
achievement after the first year, and an average of 6.3 NPR 
after 2 years of being in private school.
    Finally, it's been proven that, with school choice, inner-
city minority students are more likely to obtain a college 
degree if they attend private or parochial school when compared 
with their public high school counterparts.
    I believe that any scholarship program for our city must 
recognize the reality and needs of the city and must be crafted 
with the full participation of our leadership. And I am 
grateful to Secretary Paige and to you, Chairman Davis, for 
your willingness to work with us on this.
    I have consulted with several key educational leaders and 
have engaged in focus groups and discussions to develop a 
consensus on what an effective scholarship program would look 
like. It would have a number of elements. First, focus on low-
income parents. We propose a ceiling of 185 percent of the 
Federal poverty level or perhaps more.
    Two, emphasize opportunities for new students, those not 
currently in nonpublic schools, so that Federal funds do not 
merely supplant existing Federal aid offered by other 
institutions. And we are pleased that the bill before us gives 
preference to students currently attending low-performing 
public schools.
    Next, limit participation to schools in the District. We 
are pleased to see that this tenet is included in the bill. We 
may get down the road where we may want to open the program 
further. But I think right now, in terms of testing 
accountability in the three branches of the system, I think we 
should limit participation within the District.
    Next, require schools to admit all eligible students. And 
in cases where grades or schools are oversubscribed, admit 
students based on a lottery.
    The goal here is not to cream the best and the brightest 
students, but rather to give the neediest children 
opportunities they otherwise would not have. And I am pleased 
that the draft bill does establish a random selection process. 
Moreover, Congressman Davis has assured me that the final 
version of this bill will clearly reflect that participating 
schools are prohibited from discriminating against students on 
the basis of race, color, national origin, gender, or religion.
    Encompass a comprehensive accountability and evaluation 
component. In all the raging debate about this study said this 
and I think this study said that, one thing I get from this is 
the need to at least experiment with this program here in our 
city and establish a comprehensive accountability evaluation 
component, and see once and for all whether the program 
actually works. How about that?
    And, finally, a competitive bidding process to select a 
private or public entity to administer the program. If a 
nonpublic entity is selected, the city would like to have 
assurance that the leadership of the organization include 
District elected officials and educational leaders or otherwise 
ensure that the city has input in how the program is 
administered.
    Now, finally, I understand that there is a need for a 
distinct legislative strategy that would authorize this new 
scholarship program and that the other two sectors would be 
better addressed to other legislative vehicles recognizing that 
authorization already exists for other funding in those areas. 
And I am grateful to President Bush and the administration and 
key leadership here for their commitment to the three-tier 
educational reform effort. I look forward to working with them 
to support our DCPS.
    You know, the District of Columbia, with its limited tax 
base and limited taxing authority, can never achieve the fiscal 
parity that would support the delivery of comparable State-
level services. However, the Department of Education holds it 
accountable, and measures the District for effectiveness by the 
same yardstick as other States. In a comparative review of the 
amount of Federal, State, and local revenue committed to 
elementary and secondary education in five States with similar 
demographics, as well as overall expenditures in the area of 
education, it is important to note that the District bears an 
excessive fiscal burden in supporting these mandates. While the 
State contribution ranged among this group from approximately 
30 percent in Vermont to 64 percent in Delaware, all of the 
other States contribute significantly to the availability of 
local dollars.
    Let me say a bit about charter school facilities. The 
12,000 students in the public charter schools of Washington 
learn in a variety of facilities of varying and often 
inadequate size and quality, and I'm being kind. Unfortunately, 
there are many challenges for charter schools in securing 
facilities that inhibit high-quality teaching and learning. We 
hope that the Federal Government, again, the administration and 
this Congress, can help with funding for restructuring existing 
facilities and provide equity for nonprofit organizations to 
purchase and renovate the facilities on behalf of the charter 
schools. And I look forward to working with all of you on that.
    In conclusion, again, emotions run high on the issue of 
Federal funding for private school scholarships anywhere, and 
certainly here in our Nation's Capital. Leaders from both major 
political parties have weighed in. Advocates and scholars from 
around the country have opined on what is best or is not best 
for children. I understand that even media markets in China and 
India have picked up on this story. But for me, the issue is 
more much direct. It is much more localized. I am not 
accountable to anyone in any of these other areas. I am not 
accountable to anyone with an ideological agenda. I am 
accountable to the students and parents in this city who all 
yearn for and deserve the same thing, the same thing that these 
parents and students are yearning for, the same things the 
parents and students at the picnic that Congressman Boehner is 
talking about are seeking, our confidence in their ability to 
make the right educational choices if given the opportunity. I 
believe that this bill takes us down that road, and I strongly 
support it.
    Chairman Tom Davis. Thank you all very much.
    [The prepared statement of Mr. Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T8506.036
    
    [GRAPHIC] [TIFF OMITTED] T8506.037
    
    [GRAPHIC] [TIFF OMITTED] T8506.038
    
    [GRAPHIC] [TIFF OMITTED] T8506.039
    
    [GRAPHIC] [TIFF OMITTED] T8506.040
    
    [GRAPHIC] [TIFF OMITTED] T8506.041
    
    [GRAPHIC] [TIFF OMITTED] T8506.042
    
    [GRAPHIC] [TIFF OMITTED] T8506.043
    
    [GRAPHIC] [TIFF OMITTED] T8506.044
    
    [GRAPHIC] [TIFF OMITTED] T8506.045
    
    Chairman Tom Davis. We will start the questioning in 5-
minute intervals. I will start the questioning.
    Mayor Williams, let me just ask. The transformation 
schools, there are several that have been very successful in 
the city, others that have yet to achieve some success. 
Obviously, if they were all working, I think, on six cylinders, 
we wouldn't be here today. Is it your judgment though that it 
will take several years to implement this on a city-wide basis 
and get the public school system up to give the choices and the 
value that you would like to offer?
    Mayor Williams. You are right, Congressman Davis. 
Transformation schools are achieving a number of concrete 
steps, and we have this in material that we have submitted to 
the committee. But it's my view that even with additional 
funding, and again it's part of a three-tier approach I'm 
seeking. That even with additional funding, just logistically, 
organizationally, managerially, it is just going to take time 
to get all the schools we would like on this transformation 
track. This bill, the scholarship bill--I'm just going to call 
it the scholarship bill, I don't know its official title--gives 
us the opportunity to give children and their parents a choice 
right now.
    Chairman Tom Davis. Thank you very much.
    Secretary Paige, you went through this in Houston to some 
extent. The program is a little different there. What's your 
observation of how this affected the Houston school system?
    Secretary Paige. I think choice is a necessary condition 
for reform of a system the size of Houston or the size of the 
D.C. school system. It diminishes the number of problems you 
have to deal with. Parents feel more involved when they can 
have the options of making the kinds of decisions. And also, 
when we competed for the students, it released the kind of 
innovation and creativity that's been bottled up in the minds 
of our teachers and our principals who responded. In fact, we 
adopted an intent called the strategic intent which went like 
this: Went in to become the K-12 educational delivery system of 
choice for the city of Houston. We intend to earn that respect. 
We intend to earn so much respect that we become the K-12 
delivery system of choice.
    And so when teachers and principals were hustling to become 
the K-12 delivery system of choice, it released the kind of 
innovation in the school system that you wouldn't imagine. It 
didn't just exist in Houston. There are a lot of suburban 
school districts 50,000 60,000 school districts that you don't 
see a lot in the press that are providing wide latitude for 
their students and for their parents giving them more options, 
and they're getting the exact same results.
    Chairman Tom Davis. So I'm going to understand you. This 
isn't really about measuring how the kids are doing in private 
schools alone; it's also in measuring how--this really makes 
the public school system get better, of course.
    Secretary Paige. Our intent was to strengthen the public 
schools. The entire strategy was aimed at making the public 
school system in Houston, TX a stronger school system. It was 
not aimed at just the limited goal of the particular students 
who participated in the choice program who went out, it was 
about strengthening the public school system because we know 
that monopolies don't work, and we know that behavior is linked 
to the consequences thereof. And when schools are protected 
from consequences of failure, when failure makes no difference, 
then you are going to have a stagnant school system. You are 
going to have the bureaucracy that you see all across our 
Nation in the big cities.
    Chairman Tom Davis. Would you consider the Houston 
experiment to be a successful one?
    Secretary Paige. I think it was progressing toward that. I 
don't think we are ready to fly our flag of victory completely. 
But I think, measured against other big school systems like 
that, we would be very proud of the progress that has been 
made.
    Mr. Davis. Chairman Boehner, you have been active on this 
issue for some time nationally and also working with the locals 
in trying to craft something that works. How do you think the 
debate over vouchers has changed over the last couple of years?
    Mr. Boehner. Well, if you look at the issue here in 
Congress, I've been involved in all of the scholarship/school 
choice debates, we've lost every time. But the good news is, is 
that every single vote that we have had over the 12\1/2\ years 
that I've been here, we have gotten more votes. And I'm going 
to tell you right now, when this issue gets to the floor, we 
are going to have even more votes than we ever had.
    I do think that more Americans realize that having more 
choices is something that they appreciate. Who would ever 
imagine if we required every American to buy their milk or 
their bread at the grocery store nearest their house regardless 
of whether it was any good or not, whether it was fresh or 
stale. We would all think this was an abomination. We'd laugh 
about it. But that is exactly what we do to our kids. It's 
exactly what we do to them. It's the most unfair thing in the 
world. And we wonder why the conditions in some neighborhoods 
never improve. Because we never give the kids, the future of 
that neighborhood, a chance to succeed.
    Mr. Davis. Thank you very much.
    Ms. Norton, you're recognized for 5 minutes.
    Ms. Norton. You and I differ on vouchers, to be sure. But I 
have to tell you, even before this hearing, you have made my 
day when I read in the newspaper that the District now has an 
A-minus investment grade in investment rating. And I want to 
congratulate you on that. That is something that we have 
struggled for many years now from the time you were CFO. You 
don't get enough credit for it, but certainly your work in both 
capacities, CFO and Mayor, mean that you certainly should get a 
lot of the credit for it.
    And for D.C. residents, it means that interest rates should 
go down, and therefore, there should be some relief for all of 
us from this very important development, long-awaited 
development.
    Here is a question for both of you. How many D.C. residents 
should be on any entity that disburses scholarships to other 
D.C. residents? Should it be entirely formed of D.C. residents? 
Either one of you can speak.
    Mayor Williams. I would certainly like to see a majority of 
the folks on there from the District----
    Ms. Norton. Why shouldn't all of them be from D.C.?
    Mayor Williams. Why shouldn't all of them? Because there 
are also factors--let me put it this way. I would like to see 
the funds here complement what we are doing elsewhere in our 
education strategy. I talked about the three-sector approach. 
Part of the three-sector approach is private scholarship help, 
and certainly we would want to have some of them involved in 
some way shape or form or manner since, as you put it, they put 
their money where their mouth is. But I would like to see the 
majority of the folks from D.C.
    Ms. Norton. Mr. Secretary.
    Mr. Paige. I agree with the Mayor. I think D.C. should 
clearly have strong representation there, but I think it would 
probably be a disadvantage for the whole idea to shut out other 
people simply because they have a different address. There may 
be those who have an address outside the District who have 
strong interests in the District and who have a lot of 
capability of providing resources and relationships and context 
that would be of an advantage. I think that decision should be 
made based on how well they can contribute to the overall goal.
    Ms. Norton. Mr. Secretary, just let me say that if anybody 
knows our children, it is likely to be somebody who lives with 
our children. So the whole notion that someone would have 
something to contribute, I do not understand. But it leads me 
to another question. I spoke admirably because I do admire the 
Washington Scholarship Fund and the private funds that they 
have raised. We are not talking about private funds here. We 
are talking about public money, and therefore, I don't 
understand what folks outside of the District have to do with 
public money for children who live in the District of Columbia.
    Now, I want to ask you, suppose they are the recipient, 
these are folks who have--these are folks that I can understand 
having been other than D.C. residents, because they have raised 
private funds. Suppose they get--suppose they are the recipient 
of these funds to disburse. Should the private funding that 
they have raised be now displaced with public funding from this 
fund? Something that Congress usually abhors? Or should they be 
required to match any public funds or to continue raising 
private funds, as they have so successfully in the past? Mr. 
Secretary.
    Mr. Paige. We certainly hope that the good things that they 
are doing will continue. I see no reason to anticipate that 
this particular initiative would shut that down. I think they 
are doing what they are doing now because they want to make a 
contribution. They love kids and they want to give kids 
opportunities, and I see nothing that would change that.
    Ms. Norton. So I take that to be a yes, they should have to 
raise matching funds?
    Mr. Paige. No, you cannot take it for that. You have to 
take it what I just said.
    Ms. Norton. But that is my question, therefore, I am 
seeking an answer to that question.
    Mr. Paige. My answer is what I just finished saying.
    Ms. Norton. In other words, no answer.
    Mr. Boehner. Ms. Norton, under the legislation, the 
children have to have 185 percent of poverty or below, free and 
reduced lunch, and they have to be in a high priority school. 
That by its definition means the children who are already in a 
private school, who are getting the scholarship would not 
qualify.
    And we have to remember, the money that we are talking 
about here is for about 2,000 children. The Washington 
scholarship fund and others help a lot of kids and these 2,000 
will benefit as well, but I would suggest to you that we are 
nowhere near meeting the dollars necessary for the demand that 
is here in the city.
    Mr. Burton [presiding]. The gentlewoman's time has expired 
we will come back. Let me just make a statement and ask a 
question. I cannot for the life of me understand why, if you 
have a school system where children are not achieving their 
potential, I just can't understand why anybody would oppose 
allowing the parents of those children to choose to take their 
child out of that school and put them in a school that is going 
to help them do better and achieve the kind of educational 
excellence that they want. I just can't understand it.
    So my one question to you, and then I will pass to my 
colleagues, my one question is why, Mr. Boehner, has 
legislation that would help allow this failed in the Congress 
of the United States? I just do not understand. Who is opposing 
it? What is the big problem?
    Mr. Boehner. Well, the nature of a monopoly is they want to 
keep their monopoly. Most of them spend most of their time 
maintaining their monopoly.
    Mr. Burton. That is the teacher's unions?
    Mr. Boehner. It would be a whole host of groups in what I 
would describe as the education establishment or as some of my 
staff would describe, the blob.
    Mr. Burton. The blob?
    Mr. Boehner. They are interested in maintaining their 
franchise, maintaining their monopoly.
    Mr. Burton. Even though the schools are not achieving the 
kind of excellence that they should?
    Mr. Boehner. As I mentioned in my opening testimony, most 
monopolies tend to get large, bureaucratic, inefficient, and 
lose focus on their mission. And I think there are a lot of 
people in public education who are just working their tail off 
every day. They are trying to do the right thing, but there are 
far too many who have given up, who have given up on the 
poorest of our kids who need the most help. And so when it 
comes to losing the vision of where they are going, I think 
they have lost it.
    Mr. Burton. Let me just ask you to followup, Mr. Secretary 
and Mr. Mayor. What do you intend to do to try to get the blob 
that Mr. Boehner is talking about, get the blob to change their 
mind or to defeat them to make sure that we can get this kind 
of legislation passed to help these kids? I know it is a tough 
question.
    Mayor Williams. Well, you know I am proud that during my 
time as Mayor I have fought against a lot of people who said 
that when you were CFO, you were Mr. Mean. Now, you are tax-
and-spend, and you are throwing money to the schools. This and 
that. Money for the schools has increased 42 percent since I 
have become Mayor. I fought for money for the schools. Raises 
for teachers, 25 percent overall. I am all in support of paying 
our teachers well, giving our schools the money they need.
    But what I am saying here is one, money is not exclusively 
the answer to everything. And two, you know, to paraphrase Mae 
West: You can't have too much of a good thing. If you have an 
option, if you have an alternative to do something good in 
addition to the charter schools and in addition to the 
transformation schools, why shouldn't we do it? And I--
actually, to paraphrase you, Congressman Burton, it will 
motivate our schools to accelerate their transformation. I 
think that is what you found in Milwaukee. Everybody said if we 
do the school choice program there, it is going to doom their 
schools. They have 8 or 10 percent more students in the schools 
than before. Schools performing better than they did before.
    Mr. Burton. Mr. Secretary.
    Mr. Paige. Monopolies and bureaucracies are very good at 
protecting themselves and that is their main goal. And what we 
have to do is mobilize strong citizen and community initiatives 
toward undoing them. I think this is a step in the right 
direction. I think many other steps have been taken in the 
right direction.
    I also want to say on behalf of public school teachers and 
principals and people who operate in our system, since I have 
many years of working with them. I find them to be good, caring 
people. But then they are embedded in a system that is corrupt. 
And I think it is those of us who have some capability of 
changing the environment in which they work and tearing away 
some of the barnacles and constraints to the system. We create 
the system, they work in the system. And so that is why I think 
this initiative is a good thing, because it is an effort to 
support them and what you are going to see is they'll respond 
to this with new innovation and energy and commitment and what 
we will get is new opportunities for young people and 
consequently a better America.
    Mr. Burton. I think this is a giant step in the right 
direction, this legislation, and I am going to be asking the 
chairman to let me be a cosponsor of it as well. One thing that 
I hope happens down the road, in addition to this, is that we 
provide incentives for teachers to go that extra mile. When a 
guy sells used cars, if he sells more used cars, he gets a 
bonus. If teachers go a little extra mile and help their 
students achieve educational excellence, they ought to get a 
bonus as well. I hope we think about that down the road. Who is 
next? Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
all of you for your testimony. And my colleague, Ms. Norton, 
has some followup questions and she has run out of her time, so 
I will yield most of my time to her. There have been a lot of 
comments on all sides on this issue and some strong feelings. I 
do want to say that, Mr. Secretary, that if we really want to 
make the investment in our kids that we promised just 18 months 
ago, which as you noted was a bipartisan effort, and Chairman 
Boehner, my chairman on the Committee on Education and the 
Workforce, was a leader in this too, if we really want to keep 
that commitment and promise, we need to provide full funding 
for No Child Left Behind and in the President's budget that was 
submitted and in the budget resolution that passed this House, 
we are more than $9 billion short. We are talking about $10 
million in this effort, maybe $15, maybe $20 million at the 
most. But if we funded fully No Child Left Behind, the District 
of Columbia would get $100 million more.
    So it is important to look at different options. It is 
important to discuss the range of opportunities. The Mayor has 
testified that, in addition, the initial investment in the 
transformation school programs and charter school programs has 
improved the educational system in this District of Columbia. 
And as a neighbor of the District of Columbia in Maryland, we 
have a direct interest in the strength of this school system, 
and I commend him for the progress that has been made but 
resources do matter. I know how many resources go into the 
District of Columbia school system and how much is spent on 
special education funding, another area where the Federal 
Government is only paying 18 percent of what we committed, 40 
percent.
    This amount of resources that we are talking about is 
important. I don't know whether it is better spent in one area 
or another. But what I do know is if we made our full 
commitment to the kids, not just in the District of Columbia, 
but in Maryland and everywhere else and fully funded No Child 
Left Behind, we would be better off as a country.
    I yield the rest of my time to the gentlewoman.
    Ms. Norton. I thank the gentleman for yielding.
    Mr. Paige, my colleague has raised a question that every 
Member of Congress should be raising every time they see you, 
because I can tell you that the members of my city council are 
terrified about the ultimate consequences of the No Child Left 
Behind Act because it is this huge, unfunded mandate, 
especially with local school districts having to cut schools 
because of the state of the national economy.
    We are very worried. The reason we are worried is because 
the testing regimen accompanies this bill and is linked to the 
funds. And, of course, everybody is gearing up to do it. And 
the worry is that we, up the line, are going to have massive 
dropout rates. We already have huge dropout rates. I would 
think you would have some concern. I would like to give you 
some chance to respond because we have been seeing on 
television in this region reports that the very substantial 
increases in the pass rate that you, in Houston, reportedly 
received was the result of a huge dropout rate.
    It is said that the dropout rate of ninth graders was 
nearly--people who did not get to graduate was nearly 50 
percent, and that Houston would be 28th out of the 35 largest 
systems, and therefore, would be considered a low-performing 
district under the State accountability system and certainly 
under No Child Left Behind.
    We already are. So I have to ask you whether or not you can 
guarantee that we can get our No Child Left Behind funds in 
time to keep an already horrific dropout rate of the kind we 
are told you have in Houston from getting even worse here?
    Mr. Paige. Ms. Norton, I would like to sometime have some 
discussions with you on these subjects, but this is about the 
D.C. Choice Initiative. And I want to spend most of my time 
talking about that. But I want to correct you some there on 
your comments.
    First of all, let me tell you about the No Child Left 
Behind Act. For the first time in the history of this Nation, 
every child in a public school in the United States of America 
is covered by an accountability system. That is because of the 
No Child Left Behind Act. Every child now counts. Every single 
child has a place where that name is on the registrar, and they 
are attached to some meaning in the schools of the United 
States. That has never, ever happened before. That is because 
of the bill. And that has nothing to do with the dollars. That 
has to do with the States, the school chiefs, the District 
leadership, the State leaderships committing themselves to an 
initiative.
    Ms. Norton. No, you get funding for extra services----
    Chairman Tom Davis [presiding]. The gentlewoman's time has 
expired.
    Ms. Norton [continuing]. For the children who are left 
behind, and you know it, sir.
    Chairman Tom Davis. Would you like him to answer this?
    Mr. Paige. I will shorten this down some too because the 
gentlewoman's basic assumption is in error and many others who 
promote the idea that dollars equal success. Since 1965, in the 
Elementary and Secondary Education Act, we have spent $300-plus 
billion, and we got where we got now. Money is very important. 
Money is a necessary condition, but it is an insufficient 
condition. Other issues have to be considered, and that is what 
we are trying to do now, it is not in place of money but in 
addition to money provide the underpinning and foundation, the 
framework for the system to work. It is not all about money.
    Mr. Boehner. Mr. Chairman.
    Chairman Tom Davis. Yes, Mr. Boehner.
    Mr. Boehner. I thought this was a rather unfair attack. I 
would like to have a moment to respond.
    Ms. Norton. Well, you are not the one who has the 
information, and there has been no response to what happened in 
Houston.
    Mr. Boehner. I happen to be the author of the bill.
    Ms. Norton. I am talking about the question that I asked, 
sir. And this is about the members of the committee asking 
questions to witnesses, and you are not in a position to answer 
this question.
    Mr. Boehner. Mr. Chairman, the attack----
    Chairman Tom Davis. The chairman of the Education 
Committee, as a courtesy, will be recognized.
    Mr. Boehner. The attack came from Mr. Van Hollen, who 
quickly left, about the issue of underfunding of No Child Left 
Behind. You need to understand that the first 2 years of the 
current administration, we had more increases in Title I, than 
we had under 7 years of the previous administration.
    Let me also say that we virtually have doubled funding for 
elementary and secondary education over the last 5 years. Let 
me also say to Mrs. Norton on the issue of paying for the 
testing, that the Congress appropriated $390 million last year, 
and I think the number that is being discussed this year is 
$400 million, goes to all the States, whether they have 
developed tests or they have not developed tests, to help with 
the implementation of the tests. Some of your colleagues on 
your side of the aisle asked the General Accounting Office 
whether this was a sufficient amount of money to develop the 
test.
    Ms. Norton. Mr. Boehner, it is the services to help the 
children pass the test, not developing the test.
    Mr. Boehner. And the GAO responded that it was sufficient 
money for the States to develop and implement the testing.
    Chairman Tom Davis. Thank you. The gentleman from Virginia, 
Mr. Schrock--oh, Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. First, I 
would just like to say a couple of things.
    One, I represent a district in Virginia, and we have the 
standards of learning which all the parents and teachers and 
administration really bucked the testing of the kids. And it 
has been 5 or 6 years ago, and I was in one of the poorest 
counties of my district this past weekend and was elated to 
hear all the schools are accredited and it is because they were 
held accountable and the teachers, the community, the families, 
the parents all got together and did the job. So kids can be 
taught. It is just a matter of putting your mind to it and 
doing it.
    And to respond to my colleague from Indiana, and Chairman 
Boehner, the blob is not the only reason that vouchers do not 
always pass. There are some on the other side, like myself, 
that are concerned about vouchers for the very reason of 
strings becoming attached to private schools. Private schools 
are just that because they do not want to be tied to the 
Federal Government.
    My question to you is do all the private schools have to 
participate? If a parent chooses because--this is school 
choice--picks a school and wants to send their kid to that 
school, does that school have to take them?
    Mr. Boehner. As I understand, the school does not have to 
participate. But if the school does participate, they have to 
accept all the children that apply, unless there are more 
applicants than they have spaces for, in which case there would 
be a lottery for the open places.
    Mrs. Davis of Virginia. So if it is, in fact, a religious 
school and the parent chooses to send that kid to the religious 
school and the parents are not religious--we have the case in 
California where the nine Supreme Court Justices say ``under 
God'' comes out of the pledge simply because the father was an 
atheist, even though the mother and the child were not. Would 
we have that potential problem down the road if this child went 
to the school and one of the parents decided I do not like 
chapel or praising worship, I don't like my child being taught 
Bible scripture, what happens?
    Mr. Boehner. If I can respond, I will turn it to the 
Secretary. The Supreme Court ruled in the Cleveland case that 
these scholarships were, in fact, Constitutional. And I think 
it is important to understand that the way this bill is set up 
is that the scholarship goes to the student. It does not go to 
the school; it goes to the student. The student can take it 
where they want. And I do think that protects schools, all 
private schools, from the intrusion of the Federal Government. 
I yield to the Secretary.
    Mr. Paige. I think the idea is to broaden the opportunities 
for parents, not to constrict them. If we would say, if a 
parent would choose a school and the school does not fit the 
parents's particular needs, that because the child is at 
school, they can cause the school to change in order to fit 
their particular needs, we are talking about just the opposite 
of that. We are talking about if the school does not meet the 
parents's particular need, this parent has an opportunity to go 
to a different school. That is what we are trying to provide 
for in what we now call the public school structure. If it does 
not meet their needs, we want them to have the opportunity to 
decide if they want to stay.
    The problem we have otherwise would be the imposition of 
two powerful forces in opportunities that the government has. 
They have the ability to say you must go to school, compulsory 
attendance, and they also have the ability to say you must go 
to this particular school. What we are trying to do is broaden 
that opportunity.
    Mrs. Davis of Virginia. And I would like to have that 
broadened opportunity. What I do not want to do is harm our 
private religious schools at the moment.
    Another couple questions: If the private school is 
accepting the Federal dollars by way of the scholarship, the 
private schools now do not have to abide by No Child Left 
Behind. Will they have to abide by that?
    Mr. Boehner. No.
    Mrs. Davis of Virginia. I had one other question. Children 
with disabilities. Nothing in this act may be construed to 
alter or modify the provisions of the IDEA, Individuals With 
Disabilities Education Act. If the parents decide to send the 
child to the private school, I don't know if the private 
schools have to abide by the Individuals With Disabilities Act 
currently. Will they be forced to do that?
    Mr. Boehner. They do not have to comply with IDEA, but in 
most districts around the country, the public school district 
is required to provide services for special needs children, 
regardless of the school that they are in. But there is no 
requirement on the private school to comply with IDEA.
    Mrs. Davis of Virginia. I want to support the bill because 
I want to support the children. You see where I am coming from. 
I am just very concerned about I do not want anything--and if I 
can get your assurances, I know you are not Supreme Court 
Justices, but I will tell you, I will be the first one if a 
lawsuit comes in on one of these--something happens to one of 
the private schools, I will be one of the first ones here 
trying to pull this back. I want to see the kids educated, but 
I don't want to hurt the kids that are getting educated now.
    Chairman Tom Davis. Mr. Clay.
    Mr. Clay. Thank you. A brief question and a question for 
the entire panel. I have been an advocate for parental choice 
in the past. As a Missouri legislator, we instituted a law that 
I authored to allow charter schools in Kansas City and St. 
Louis. But I am willing to admit when I make a mistake. The 
studies have come in from Missouri that show no measurable 
academic achievement for those students in those charter 
schools. And I don't know, it just seems like an experiment. It 
seems like a shift in cash from the public schools to charter 
schools or other private entities.
    Now, let me ask the question, and we can start with 
Secretary Paige. Should we have benchmarks for charter schools, 
for voucher schools, for schools of opportunity? Benchmarks 
that tell us that reading levels have risen? That math scores 
have risen? Test scores have risen?
    I mean, I looked at the legislation, and I do not see the 
requirement for benchmarks in there. And so perhaps we can 
start with the Secretary and then the other two panelists give 
me their opinion about whether we should have benchmarks or do 
we want to shift the responsibility of educating our young 
people to private entities and not have the necessary 
requirements to ensure that they get a quality education?
    Mr. Paige. Thank you. I will make three points. The first 
one is I have noticed that the quality of the charter schools 
across the United States is influenced heavily by the quality 
of their legislation that they have in the various places. Some 
States have different approaches to charter schools. Some 
States even had such debates and the legislation was built in 
such a way that the charter schools don't have much of a chance 
of succeeding.
    So it is difficult to measure charter school performance in 
the aggregate. It is probably better to deal with specific to 
the environment that they set up.
    About benchmarks, if you mean by that should there be a 
specific target that they should meet or if you mean that they 
should show growth on the part of the student, if you mean the 
latter, the answer is yes. Exactly. I agree with that. That is 
why I think that this draft legislation has powerful evaluation 
components in it. One of the strongest ones I have seen 
anywhere.
    Mr. Clay. It could be strengthened.
    Mr. Paige. We are here to hear suggestions.
    Mr. Clay. The Mayor just cited a recent study that I hadn't 
heard, but up to now, I have not heard much good about 
charters. Can you help me and cite something that may give me 
some encouragement about charter schools?
    Mr. Paige. Yes, I will just make one point. The big 
difference here is that charter schools are required by their 
charter to improve the circumstances for students. If they do 
not, they will be in violation and the charter can be 
withdrawn. That is different from the public school system 
where we have allowed those systems to continue, although they 
might be even doing damage to students, let alone not helping 
them grow.
    So that is a big difference between those two, and a 
powerful reason why we should at least support charter schools. 
I am a strong supporter of charter schools. We created charter 
schools in our district in Houston. The Kip Academy is here now 
because we started it in Houston.
    Mr. Clay. It is about what choices we give these parents 
and children and what benefit they get out of charter schools 
or public schools or vouchers.
    Let me go on to the Mayor, please.
    Mr. Paige. I agree with you.
    Mr. Clay. Mr. Mayor, can you tell me about what is the 
grade you would give the charter schools in the District of 
Columbia?
    Mayor Williams. Well, Congressman, I think if you look at 
what is the sweep of studies around, I think you can find solid 
evidence that charter schools have been successful. I have 
cited a study here where the private scholarship fund was 
successful the first 2 years. The problem was that a lot of 
kids dropped out because they couldn't afford the education 
they were getting, which to me is a strong statement of support 
for what we are trying to do here. And even if the studies show 
that the charter schools were not making a material difference, 
I would concur in what Secretary Paige is doing. The basic 
charter of the charter schools is that they have do improve 
those outcomes. And if they do not, they go out of existence.
    And, two, in terms of general outcomes in these 
experiments, I would argue that we have been doing this one 
approach for over 150 years----
    Mr. Clay. Wait a minute, Mr. Mayor. Excuse me, what about--
--
    Mayor Williams. We have been doing one approach for 150 
years. We ought to at least find another approach.
    Mr. Clay. What about sharing----
    Chairman Tom Davis. Your time has expired. We will let you 
finish this question then we have to go to vote. There are 7 
minutes left, and Mr. Boehner and I, we will resume the meeting 
when Mr. Schrock bets back. If you want to ask just a quick 
question, Mr. Clay?
    Mr. Clay. No.
    Chairman Tom Davis. We will recess for a couple minutes, 
and we will resume questions with Mr. Schrock upon his return. 
The meeting will be recessed. Be right back.
    [Recess.]
    Mr. Schrock. If everybody will please take their seats, we 
will continue. We want to reconvene because the Secretary has 
to leave at 3:45. So if everybody will take their seats, 
please.
    I have been chomping at the bit to speak all day, and I am 
glad I did my vote quick and got back here.
    Mr. Mayor, Mr. Secretary, and of course Mr. Secretary in 
absentia, I am glad you are all here today. I want to make one 
thing real clear and make everybody understand why we are here. 
We are not here to talk about Houston schools. We are here to 
talk about the schools of the District of Columbia. This is the 
issue we have today, and we need to stick to that and when we 
start veering off to talk about other things, we are covering 
up the real problem. And I think people understand that.
    I come at this education issue from a totally different 
perspective. I have been privileged to be married to a teacher 
for 35 years, and believe me, I have heard it every day and 
every night, and I know how my wife has tried to fix some of 
these things, and I would love to get her up here to fix this 
system, frankly. I believe she would do a good job.
    I have been making notes throughout the whole hearing and 
they talk about depleting funds from the District of Columbia 
school system. It wouldn't make any difference anyhow. It is 
not a ``failing'' system; it is a ``failed'' system. So if we 
are going to salvage this system, we need to provide as much 
money to at least get 2,000 kids out of this to get them into 
schools where they can achieve things.
    I have been sitting here looking at mothers. I know who 
they are. And I have been looking at this cute little guy on 
the third row who has been on again off again sleeping. I 
understand that. And what we are going to do here today will 
impact this little guy's life for a long time to come. We can 
step up to the plate and do what is right or just do the 
political correctness thing and not do anything and shame on 
us.
    No child should have to go to a failing school. The program 
in Virginia is working, even in some of the worst areas. The 
worst school in Norfolk, VA--that I represent--suddenly is 
achieving things. There is accountability, responsibility. We 
have made the kids perform and we have gotten the parents 
involved and it can be done. I don't care what school system 
you are talking about. And this is my Capital City. Mayor 
Williams may be the Mayor, Ms. Norton may be the 
Representative, but this is my Capital City. The Capital city 
of the United States. It is every one of yours Capital City. 
And for us to have kids being taught in a school system where 
they are failing is a crime, and we ought to be ashamed of 
ourselves for letting that happen. I bet there are not many 
capitals in the world where they can say that, and we need to 
do something and we need to do it mighty quick.
    Throwing money at the problem is not always the answer. 
They have thrown a lot of money, you heard them say $9,600 per 
year, but the test scores keep going down and the kids keep 
failing. Money is not the only answer. Yes, it is part of the 
answer, but there is a lot more of that equation than just 
money.
    And we can study this thing to death. Whenever anybody does 
not know how to solve a problem they say, well, we will study 
it and see what happens. The time for studies has stopped, the 
time for action is here and we need to take action on this bill 
right away.
    When somebody mentioned the teachers unions--don't get me 
started on that. I have seen that firsthand. The teachers 
unions do not want this because it is an admission that they 
have failed. And I think the sooner people realize that, the 
better.
    And accountability, Mrs. Davis is absolutely right when she 
said accountability. Because accountability is what has changed 
some of the school systems in Virginia, the failing schools to 
passing schools. Let me read a couple of statistics, and I want 
to ask the Mayor a question and the Secretary a question. It 
says: D.C. spends 45 percent more per child than the average 
for the United States with consistently poor returns. Anacostia 
High School--I happen to know where it is because I pass it 
once in a while--92 percent of the students score below average 
in basic mathematics. The average student in D.C. scores 71 
percent below average in math.
    Mr. Mayor, please explain to me how you can spend--and I 
know you are on our side on this, please understand where I am 
coming from--but how can you explain the fact that D.C. spends 
1\1/2\ times the national average and they consistently see 
test scores that are well below the average?
    Mayor Williams. You say explain. Describe? Or justify or 
what?
    Mr. Schrock. Why is this happening? Everybody says if you 
throw money at a problem it is going to get fixed. No, it is 
not.
    Mayor Williams. I think Congressman, first of all, I think 
when we talk about the money allocated to D.C. schools, I think 
we really should acknowledge the fact that there are State 
costs that are incorporated in that. So if you compare for 
example the dollars that the District is spending with another 
city, understand where the State costs are and where they 
aren't. That would tend to inflate the dollar figure for the 
District. But we do spend a lot of money for our schools. Many 
of our schools are low-performing and many of them are 
``failing,'' and I believe that this bill gives us the 
opportunity to seek another alternative to give these children 
a future; 2,000 of them potentially.
    Mr. Schrock. I agree. Do you find that the parents are 
content with what is currently available to them in regard to 
their children's education?
    Mayor Williams. I have set a goal in self-interest as Mayor 
of improving the tax base of the city. And I see improving--a 
lot of critics say I have no understanding or vision for what I 
am doing. Any Mayor has a vision. They want to improve their 
tax base. And you can do it two different ways. It is not 
rocket science. You move people who have some dollars to pay 
taxes into your city, and you lift up people, who are already 
in your city, into the mainstream so they can also enjoy the 
benefits of American society. And one of those benefits is 
paying taxes.
    I will give you an example. Oyster School. I was surprised 
1 day I drove by the Oyster School there was a line around the 
block of parents to get into the Oyster School. That speaks to 
the overwhelming demand of parents in the district for quality 
choices for their kids. And what we are doing here is providing 
those choices, improving education, the foundation of the 
future of the city.
    Mr. Schrock. I want to get back to you, but the Secretary 
has to leave and I want to ask one question. Some argue that 
school choice programs threaten students's civil rights. 
Frankly, I think we are threatening their civil rights when we 
do not give them the choice. But what is your response to that 
argument?
    Mr. Paige. Congressman, I would make the opposite argument. 
I believe that taking away choices from parents and children 
violates their civil rights.
    Mr. Schrock. I agree.
    Mr. Paige. I think education is a civil right, and I think 
we have an obligation to live up to that. And when we do not 
provide a quality education for a child, we are denying them 
that civil right that not only affects them but also affects us 
as a Nation.
    So choice expands their civil rights and expands their 
opportunities, and it also expands the opportunities for the 
system that they are a part of. It makes it work much better.
    This would be my view. And I would apologize now for having 
to leave, but I am required to be in another location right 
away. Thank you very much.
    Mr. Schrock. We understand. Thank you very much. We 
appreciate it.
    Mayor, let me ask a couple more questions. This is 
borderline political, so I will be careful how I ask it, but is 
it true that because of the illiteracy rate in D.C., in your 
write-in campaign in 2002, your supporters handed out 
preprinted stamps because voters couldn't write your name?
    Mayor Williams. Well, it turned out there wasn't really a 
demand for the use of the stamps. I mean, clearly in any 
jurisdiction and ours we wanted to make it easier for people. 
But regardless of what happened with the write-in campaign, 
Congressman, the fact is that 37 percent of our citizens have a 
challenge when it comes to reading. I think reading at a third-
grade level, and we need to change that in terms of the future 
of our city.
    Mr. Schrock. That is my point.
    Ms. Norton.
    Ms. Norton. Mayor Williams, I have gotten phone calls and 
concerns from charter school personnel and parents about the 
fact that charter schools--what they regard, the institutions 
regard, a terrible precedent has been set. Others are simply 
worried about not being treated equally with the public 
schools. And that is that, apparently for the first time, there 
is in the D.C. budget a line that says we do not have the money 
to fund you equally on a per pupil basis. Go to Congress and 
get $6 million. Now, the concern is horrific that the Congress, 
which has no record of generosity to the D.C. public schools, 
may indeed leave charter schools out there treated unequally to 
other public schools even though they are public schools.
    So I need to know--also interestingly, they have said 
Congress must not fund--must not give this $6 million. Normally 
people say just the opposite. They say if you do, you will 
create a precedent whereby the District will always hand off 
some of what is due the charter schools to the Congress, and 
they say they lose that way because you can't depend on the 
Congress. And you know you can't depend on the Congress. So 
what would be your response to that and can you guarantee that 
the District of Columbia, rather than the Congress, will fund 
the charter schools with the $6 million that has been now 
requested of the Congress for funding the charter schools?
    Mayor Williams. One thing I have found as Mayor is that 
there is no one who feels fully funded. Everyone feels there 
are additional funds needed.
    Ms. Norton. This is on a per pupil basis, where they are 
entitled----
    Mayor Williams. And one of the things that we have done 
over the last 5 years is fully fund the charter schools for the 
first time, front load their funding, work on their facilities. 
Although, one of the things I would like to see is more money 
for modernization and with the 2004 budget, address this $6 
million issue so they have that $6 million. That will be in our 
2004 budget.
    Ms. Norton. That is very important. And I appreciate and I 
know the parents will appreciate your statement on that. You 
know that in grades three through eight under the No Child Left 
Behind bill, the children must take tests annually. Now, how 
will we assure ourselves that the children in three through 
eight are taking the same or similar tests, especially given 
your testimony that we need to evaluate or compare how the 
students do in the parochial or private schools with how they 
do in the D.C. public schools? How will this accountability, on 
the basis that the public schools are held to even by the 
Federal Government, be enlisted for children in grades three 
through eight in private schools?
    Mayor Williams. Congresswoman, discussions are under way on 
how that will work in terms of trying to standardize the tests 
so that they provide data that is useful across the different 
systems but that is still a work in progress.
    Ms. Norton. I am sorry; say that again.
    Mayor Williams. In other words, creating a mechanism to 
correlate the tests. The students may be taking different 
tests, but there are ways in which you can make them comparable 
for outcome evaluation purposes and that is certainly the goal.
    Ms. Norton. That would be very important for the 
accountability that we all seek and the No Child Left Behind 
bill seeks. In Milwaukee, they began the way you say you want 
to begin, with a lottery, the way our charter schools do it, 
the way public schools do it. Now, charter schools, you just 
have to take any child that comes to the door. After awhile the 
parochial schools complained about the lottery. The lottery was 
withdrawn and in Milwaukee, they now do not accept any students 
that are more than one grade behind.
    How can you assure us that, given the limited staffs, lack 
of support services, that our parochial schools have in 
particular--I am just grateful that they are able to keep the 
doors open--that we won't be quickly going to that situation? 
Especially since many of our students--I hate to think how 
many--are more than one grade behind. And most of those will be 
precisely the students who qualify for these vouchers because 
they will be the students under that income level that is set 
in the voucher bill.
    Mayor Williams. I think one of the great things about this 
program that is becoming to me is that there is an evaluation 
system, so that we can, as we start this program with a 
lottery, we can evaluate the program as it goes and make the 
necessary changes. I don't think that one size fits all. I 
think we have to be open to being flexible, open to changes 
based on the results as they come in.
    Ms. Norton. I just warn you, Mr. Mayor, most of our 
students are more than one grade behind, and I am certain that 
most of the low-income children are more than one grade behind. 
And I begin to wonder how a voucher program would work in D.C., 
given that kind of concern. And I think the parochial schools 
were right to raise them. One of the reasons that I do not 
object to their not taking every child is that they run on much 
smaller budgets, do not have the public money we have for 
support services. So one wonders how you are going to really 
deal with the lowest-income students, and why this won't just 
be pushed up so that anybody who can get in can qualify.
    Chairman Tom Davis. Thank you. Who has not had a question 
yet? Mr. Platts. And then Mr. Carter.
    Mr. Williams, I understand you have 10 more minutes and 
then you have to leave.
    Mr. Platts. Thank you, Mr. Chairman. And, Mr. Mayor, I 
apologize. Some of my questions maybe were more appropriate for 
the Secretary, but you are the only one left. I appreciate your 
efforts and your leadership for the District of Columbia. And I 
would say up front that, philosophically, I haven't been in my 
11 years of public office a supporter of vouchers because I 
think it sends the wrong message that we help a few, perhaps, 
get a better education, and in essence, give up on the rest who 
are left behind. Instead of saying if we have schools that are 
unsafe or falling down or we have schools that can't recruit 
good teachers, that we try to fix those problems for every 
child in that school, not just those who can perhaps get a 
better education. I say that up front as a disclaimer. 
Philosophically, I think vouchers hurt public and private 
schools in the end.
    But some specific questions about the bill. Our focus and 
everyone's comments here today in favor of it has been about 
giving choice to parents, to students. That is where the 
decision should be. Unfortunately, as I have read through the 
bill and the specifics, the way I understand the bill is that 
it starts with the Secretary first deciding what program will 
be selected, what scholarship program will be selected. And the 
Secretary first decides who will administer the program. That 
program will then select what students will be selected for 
participation in the program.
    So you could be a student in a failing school at 150 
percent of the poverty level, but you may not be selected 
because the program will select whether you are a participating 
student or not. I am not aware of anything in the bill that 
says every child eligible will be selected. I guess I would 
start there.
    Chairman Tom Davis. Mr. Platts, I authored the bill. We 
have a finite amount of money. It is not a straight 
entitlement. And if we have more people eligible--remember, the 
only ones eligible are those who are poor and from 
nonperforming schools. And if we do not have enough slots for 
the people who apply, we go to a lottery. I don't know how else 
you do this. That is why it is stated the way it is.
    Mr. Platts. Well, I would have to disagree. The bill says 
you have to be poor. It does not say you have to be in a 
failing school. That is a parameter that will be looked at, but 
the bill does not require you to be in a failing school the way 
it is drafted.
    Chairman Tom Davis. It is a nonperforming school. Even 
people currently in the program are not eligible, but if you 
are from a performing school--unless--it sets a priority. If 
you don't have enough people from nonperforming schools apply, 
then we could get into the performing schools. But the priority 
is set on those with nonperforming schools, and it looks like 
we now have a waiting list that far exceeds the capacity to pay 
for it out of this.
    I hope that answers the question. It is not a straight 
prohibition, but there is a priority set.
    Mr. Platts. I agree the bill says the Secretary, in 
selecting programs, will give weight to how the program will 
select students from nonperforming schools. It does not 
prohibit other students----
    Chairman Tom Davis. But only if it is not oversubscribed, 
and we know it will be the first year.
    Mr. Platts. Let me go forward with some of the other issues 
that jumped out. The bill as drafted, Mr. Mayor, is also that 
the program will decide how much a student gets. Seventy-five 
is the maximum, but the program decides whether it is $500 or 
$7,000, is that your understanding as well?
    Mayor Williams. That is my understanding, but my preference 
is around that $7,500 number, because I think that allows you 
to maximize the number of low-income students that attend these 
schools. And I might say, I know of folks who are involved in 
the scholarship program, and I have no reason to believe, 
absolutely no reason to believe, that they would use this money 
to supplant what they are already doing. This money would 
augment what they are doing.
    Mr. Platts. But again, we give the choice and the decision 
to a separate entity, not to the parent. Whether they get $500 
or $7,500 is not----
    Chairman Tom Davis. Would the gentleman yield? The reason 
again for that is if you get them into a school for $4,000, why 
would you give them $7,500?
    Mr. Platts. I agree that you shouldn't give more than the 
cost of the school. But the school could cost $10,000, and the 
way the bill is written the scholarship program could choose to 
serve more students, and say we are only going to give you 
1,000 and then the choice is not with the parents and the 
child, it is with the program.
    It may be specific to my biggest concern, I have a whole 
list that jump out, but the schools, again, for the schools in 
the District of Columbia, if a parent wants to accept a 
scholarship and go to School A, it sounds like that is their 
choice. But it is actually up to the school whether they will 
participate in the program or not. The school is not required 
to participate. Is that your understanding?
    Mayor Williams. Right, the schools are not required to 
participate. But I mean, if past experience is any indication, 
and certainly statements of educational leaders here in the 
city who would participate are any indication, there will be 
huge participation.
    Mr. Platts. Let me point out one of my biggest concerns, 
and maybe I can come back in a second round here, but the 
focus, everything was about giving choice to parents and 
students. And the way I read the bill, first the Secretary has 
a choice of what programs are selected, the program has the 
choice of what schools to have participating and what students 
will be selected. But what troubles me the most is that the way 
I read the bill is a faith-based school could choose not to 
take any students except for scholarship students who share 
their faith. That they could discriminate based on their faith 
in their admission policy.
    Mayor Williams. No, I understand the way this is structured 
as the Secretary and Congressman Boehner was saying the dollars 
follow the student, not with the school. So once a school 
agrees to participate in this program, now, that is the 
school's choice, but once they agree to participate in this 
program, they cannot discriminate.
    Mr. Platts. In Section 8, Nondiscrimination, under 
religiously affiliated school, it says: ``notwithstanding any 
other provision of law, the school participating in any program 
under this act which is operated by, supervised, controlled by, 
or connected to a religious organization may employ, admit, or 
give preference to persons of the same religion to the extent 
determined by that school to promote the religious purpose for 
which the school is established.''
    Chairman Tom Davis. I can address that. The admissions 
process will be taken out in the manager's amendment. That is a 
drafting error and it will be taken out.
    Mr. Platts. That was one of the things that jumped out.
    Chairman Tom Davis. The Mayor pointed that out to us 
yesterday as it was going through. We did not retrieve it, but 
that will be part of the----
    Mr. Platts. I stand corrected, and it will be corrected I 
guess. I will come back if we have a second round.
    Chairman Tom Davis. I think we only have 5 more minutes, 
Ms. Norton has had a second round. So I will end with Mr. 
Carter. Do you want to ask any questions? Judge Carter.
    Mr. Carter. I will accept it and yield my time to Mr. 
Platts.
    Chairman Tom Davis. Take it out of my 5 minutes. You are 
recognized.
    Mr. Platts. Thank you, Mr. Chairman. The points I raise 
said are I think everyone wants to do right by children, and my 
concern is if you are going to have a choice program, that the 
choice actually resides with parents and students, not with 
others. And that is of concern to me whether this actually does 
that. I appreciate your time, Mr. Mayor. And Mr. Chairman, I 
appreciate your indulgence.
    Chairman Tom Davis. I don't know how else you draft 
legislation to give choice to parents except we set criteria. 
And in one sense the program chooses the parents, and they have 
to have kids who come from school districts that are 
nonoperforming and that are poor. And unfortunately, we 
probably have more of those children in this school system that 
want to take advantage of these scholarships than we have 
spaces available. So that would go to a lottery. Isn't that 
correct, Mr. Mayor?
    Mayor Williams. That is correct.
    Chairman Tom Davis. I wish we could get a larger 
authorization for this than $15 million. I also want to state 
again that this is part of a package that I think will, upon 
completion of the appropriation process, will find increases of 
a like amount for the public school system and the for the 
charter school system. This is added value for the school 
system. This is not subtracting. And that makes it different 
from some of the other lottery proposals that have been on the 
ballots in other States and the like. We have tried to meet 
some very legitimate concerns raised by members. It is 
impossible to meet all of them. There are ideological views 
that we shouldn't be doing this at all. And to those people, we 
will never satisfy their concerns.
    I think the key is, as the Mayor pointed out, the kid who 
is in third grade next year will never get another shot at 
third grade. And if the public school cannot perform and meet 
those expectations, what are we to do but to give them the 
choices that the members of the city council and Members of 
Congress and wealthier members of the District of Columbia 
exercise.
    Ms. Norton. Will the gentleman yield for a minute? It is 
not an adversarial point at all.
    Chairman Tom Davis. Happy to yield.
    Ms. Norton. I just want to say for the record that we have 
been able to get extra money for charter schools in the past, 
and I worked my little behind off last year to get $17 million 
extra money. First it was $20 and then there was across-the-
board cuts for everything. Because the charter school folks 
were absolutely out of their skulls with the facilities.
    And so I have my doubts about the House, because we were 
able to get extra money because the Senate has been so 
impressed with what has happened to charter schools. And I 
certainly will make every attempt to repeat that. But I do want 
to say if that is repeated, that is the kind of thing we have 
been able to do often. I mean if that is your three-sector 
approach--going to the Appropriation Committee and seeing if 
you can get them to come up with some extra dollars every 
time--I do not think you have a three-sector approach.
    And I also want to say this for the record, that this money 
should not come out of the shallow amount that has been set 
aside in each appropriation already for your priorities, Mr. 
Mayor, including storm water runoff and the like. And my 
greatest fear is that, you know, a little bit of change will be 
thrown in for the charter schools, but it will come right out 
of your own pocket, so it will rob Peter to pay Paul and we 
have to struggle to make sure that does not happen.
    Chairman Tom Davis. Before I give the Mayor an opportunity 
to respond, I want to make it clear from my perspective when 
the package is completed, when it has gone through the House 
and the Senate and the conference and everything else, I think 
we will see additional money for the public school system that 
would not be there, additional money for charter schools over 
and above the $17 million that you got last year and money for 
this. A three-pronged approach. This is something that I think 
the Mayor has said he would like to see all of it together. The 
problem is this is an authorization bill for one sector. The 
other two segments are authorized. Those are appropriation 
issues and whatever issues we may have in the House, we have a 
Senate and an administration that I think stands behind that. 
And I think this is a win-win for the D.C. students.
    Let's remember at the end of the day what this is about. It 
is not about a school system. It is not an ideology. It is 
about 60,000 some kids in the D.C. public school system today 
who are not getting the opportunities to learn that the rest of 
us do around the world, across the river in Fairfax County or 
over in Montgomery County, and changing that school system, the 
public school system. And strengthening that system takes time. 
We have made some progress, as the Mayor noted in his remarks, 
but I think this helps strengthen the public school system, and 
in the meantime, a stopgap for giving those kids opportunities 
next year that they wouldn't have otherwise. That is what we 
are trying to do. It is about kids.
    And I don't know how any Mayor, and I will ask you this 
Tony, how would you look people in the eye turning your back on 
an additional $15 million for the city that they couldn't have 
otherwise and the opportunities, when there is a waiting list 
of thousands of kids to do this?
    Mayor Williams. Again, I think Congressman, if you are 
trying to lift people up or you are trying to attract people to 
your city, you need to provide more choices. That is what I 
hear over and over again. And it would be very difficult for me 
to go to people and say I am going to turn down this extra 
money for some, you know, ideological reason or some reason 
like that.
    I have heard over and over again, this notion that we are 
taking money that could otherwise be used to help all of the 
students for just a few students. First of all, this is extra 
money, and also if I was sitting in an emergency room and 10 
people came into my emergency room and I could treat these 10 
people and save them, I would do that. I wouldn't say to these 
10 people that with the money I am going to use to treat you, I 
could use to go and find a cure for this disease. Yes, you have 
to find a cure for this disease but you have to help these 10 
people. Yes, we want to and we are improving our schools, but 
we have an opportunity to help thousands of kids right now and 
we ought to do it.
    Chairman Tom Davis. Mrs. Davis you had one last question?
    Mrs. Davis of Virginia. Yes, Mr. Chairman. It is actually, 
I would like a point of clarification. I asked the question 
earlier about IDEA and Chairman Boehner answered it that the 
private schools would not have to comply. But as I read the 
draft bill on page 9, it says that nothing in this act may be 
construed to alter or modify the provisions of the Individuals 
with Disabilities Education Act. That tells me if private 
schools, if they accept these students, they would have to 
comply.
    Chairman Tom Davis. No, I think the answer is they are not 
getting Federal aid, they are getting money directly from the 
kids. This is not money from the Federal Government to the 
schools. This is money from the Federal Government to the 
children who then choose the schools and the courts have issued 
that differentiation.
    Mayor Williams. Congresswoman, that is a major difference. 
The dollars are with the students, not to the school.
    Mrs. Davis of Virginia. And I hope that is the way it ends 
up being, because right now the private schools do not have the 
money to do it.
    Chairman Tom Davis. That is the only way you get the true 
choice. Tony, I want to thank you, and I want to thank the 
Secretary. I know you have to go. It has been a very successful 
hearing. We will continue on this and probably move at a 
committee level to address this bill after the July 4th recess. 
The meeting is adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Wm. Lacy Clay and 
additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T8506.046

[GRAPHIC] [TIFF OMITTED] T8506.047

[GRAPHIC] [TIFF OMITTED] T8506.048

[GRAPHIC] [TIFF OMITTED] T8506.049

[GRAPHIC] [TIFF OMITTED] T8506.050

[GRAPHIC] [TIFF OMITTED] T8506.051

[GRAPHIC] [TIFF OMITTED] T8506.052

[GRAPHIC] [TIFF OMITTED] T8506.053

[GRAPHIC] [TIFF OMITTED] T8506.054

                                   - 

</pre></body></html>
